Department of Homeland Security
   Ofﬁce of Inspector General

  TSA's Breach of Sensitive Security Information 


                    (Redacted)





OIG-10-37                               January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                     January 25, 2010


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report is in response to a request from the DHS Secretary. It addresses the
circumstances, events, and actions surrounding the review, public posting, and discovery
of unredacted Sensitive Security Information in a document on the internet, and identifies
weaknesses in the department’s policies and oversight for handling Sensitive Security
Information. It is based on interviews with employees and officials of relevant
components and offices; direct observations; and a review of applicable documents and
databases.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................6


      Roundtable Discussion Used in Lieu of Three-Stage Review Process ........................6 

      OSSI Policies and Procedures do not Advise Employees on Handling and 

        Releasing Redacted SSI Documents .........................................................................7 

      Failure to Follow OSSI Procedures Resulted in an Improper Document Redaction ...8 

      TSA Actions to Support the Montana Airport Solicitation Faced a Number of 

        Challenges ...............................................................................................................12 

      SSI Security Breach Discovered.................................................................................15 


Conclusion .........................................................................................................................17


      Recommendations, Management Comments, and OIG Analysis ..............................17 



Appendices
     Appendix A: Scope, Purpose, and Methodology ........................................................21 

     Appendix B: TSA Comments to the Draft Report ......................................................22 

     Appendix C: Chief Privacy Officer Comments to the Draft Report ..........................26 

     Appendix D: Evolution and History of the Redacted Screening Management SOPs .28 

     Appendix E: The SSI Review Analyst SOP Checklist and Style Guide .....................29 

     Appendix F: Office of SSI Transmission Email of Redacted Screening 

      Management SOP to the Screening Partnership Program Office .............................45 

     Appendix G: Office of SSI Transmission Memorandum of Redacted Screening 

      Management SOP to the Screening Partnership Program Office .............................46 

     Appendix H: Security Screening Standard Operating Procedures Sensitive 

      Security Information .................................................................................................47 

     Appendix I: Inventory of SSI Documents and Proper Handling Guidance ................49 

     Appendix J: Major Contributors to this Report...........................................................50 

     Appendix K: Report Distribution ................................................................................51 



Figures
     Figure 1: Visually Redacted and Redacted Document Creation ............................... 10 

     Figure 2: Chronology of Security Breach Discovery ................................................. 16 

Table of Contents/Abbreviations





Abbreviations
  ACQ              Office of Acquisitions
  DHS              Department of Homeland Security
  FedBizOpps.gov   Federal Business Opportunities’ website
  OIG              Office of Inspector General
  OIT              Office of Information Technology
  OSO              Office of Security Operations
  OSSI             Office of Sensitive Security Information
  PDF              Portable Document Format Adobe® Acrobat®
  PIA              Privacy Impact Assessment
  R                Redacted
  TSA              Transportation Security Administration
  SOPs             Standard Operating Procedures
  SPPO             Screening Partnership Program Office
  SSI              Sensitive Security Information
  STARS            SSI Tracking Audit and Review System
  VR               Visually Redacted
OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
           At the request of the Secretary for the Department of Homeland Security,
           we reviewed the events surrounding the release of Sensitive Security
           Information contained in the Transportation Security Administration’s
           Screening Management Standard Operating Procedures. The
           Transportation Security Administration posted the document on
           March 3, 2009, and reposted it on March 16, 2009, to the Federal Business
           Opportunities, or FedBizOpps.gov, website, as part of a solicitation to
           privatize seven airports in the State of Montana. The objectives of our
           review were to determine how and why the release occurred, and whether
           management controls are in place and operational to ensure that a similar
           event would not recur. We determined that for the two documents in
           question, the redactions were not applied properly, and appropriate quality
           control procedures were not in place to protect against inadvertent
           disclosure. Consequently, Sensitive Security Information was visible in a
           public document posted on the internet. The Transportation Security
           Administration is conducting an internal vulnerabilities assessment of the
           effect of the standard operating procedures disclosure.

           Transportation Security Administration officials received email messages
           on December 5, 2009, advising of a potential Sensitive Security
           Information breach. These notifications were made by a Transportation
           Security Administration employee to the Office of Sensitive Security
           Information, several Transportation Security Administration Sensitive
           Security Information Coordinators, the Transportation Security
           Administration Contact Center, as well as an external entity, the United
           States Computer Emergency Readiness Team. At this time, we are
           unaware of what actions TSA took in response to these notifications.

           On December 6, 2009, at 4:28 p.m., the Transportation Security
           Administration Blog Team also received an email message indicating that
           unredacted Sensitive Security Information in its Screening Management
           Standard Operating Procedures was on the internet and visible to the
           public. Transportation Security Administration senior leadership did not
           receive notification until December 6, 2009, at 8:40 p.m. After receiving
           notification, the Acting Administrator took immediate actions and began
           intermediate and long-term measures to mitigate vulnerabilities. The
           Transportation Security Administration requested that the General
           Services Administration remove the website posting at 10:30 p.m. The


                     TSA’s Breach of Sensitive Security Information

                                        Page 1
                    General Services Administration removed the solicitation, including the
                    Screening Management Standard Operating Procedures from
                    FedBizOpps.gov. Appendix D reflects the evolution and history of the
                    redacted Screening Management Standard Operating Procedures.

                    We are making five recommendations, one to the department’s Chief
                    Privacy Officer, three to the Transportation Security Administration, and
                    one is directed to both. In response to our draft report, the Transportation
                    Security Administration and Chief Privacy Officer proposed plans and
                    actions that, once implemented, will reduce a number of the deficiencies
                    we identified. The Transportation Security Administration and the Chief
                    Privacy Officer concurred with all of our recommendations.


Background
                    To comply with the Aviation and Transportation Security Act of 2001, the
                    Transportation Security Administration (TSA) established pilot projects at
                    five airports where employees of qualified private companies, under
                    TSA’s oversight, and in compliance with federal regulations, policies,
                    guidance, and Standard Operating Procedures (SOPs), would perform
                    passenger and baggage screening.1 The law required that those contract
                    screeners meet all the requirements applicable to federal screeners and the
                    program be established no later than November 19, 2002. To satisfy the
                    Act’s requirement, TSA entered into contracts for pilot programs at the
                    following airports:

                                �   San Francisco International Airport
                                �   Kansas City International Airport
                                �   Greater Rochester International Airport
                                �   Jackson Hole Airport
                                �   Tupelo Regional Airport

                    To meet all the requirements applicable to federal screeners, private
                    contract companies proposing to undertake and perform these duties
                    would need information concerning airport Screening Management SOPs.
                    These procedures contain Sensitive Security Information (SSI). SSI is a
                    specific category of sensitive but unclassified information restricted from
                    public disclosure. There are 16 categories of information relating to
                    transportation security that constitute SSI. TSA's SSI regulation
                    establishes certain requirements for the handling and dissemination of SSI,


1
    Public Law 107-71, § 108.



                                TSA’s Breach of Sensitive Security Information

                                                   Page 2
                 including restrictions on disclosure, and also establishes that unauthorized
                 disclosure is grounds for civil penalties and other enforcement action.2
                 The Government Accountability Office said in its November 2007 letter
                 report to Senators Byrd and Price that “According to TSA, SSI may be
                 generated by TSA, other DHS agencies, airports, aircraft operators, and
                 other regulated parties when they, for example, establish or implement
                 security programs or create documentation to address security
                 requirements.”3

                 Although the privatized screening pilot projects ended in November 2004,
                 the Act includes a provision to expand the pilot program. As a result,
                 other airport operators wanted to pursue privatized screening and TSA
                 created the Screening Partnership Program Office (SPPO), within the
                 Office of Security Operations (OSO), to perform and facilitate this
                 function. Airport operators have been able to apply to SPPO to use private
                 screeners since November 2004. As of January 2010, private contract
                 screeners are in place at nine domestic airports.

                 Prior to a 2007 solicitation for requests for proposals to implement
                 privatized screening at the Key West Airport, TSA required potential
                 vendors to sign a nondisclosure agreement before providing the SSI
                 Screening Management SOPs via its SPPO web-board. The web-board
                 controlled access via login/password to vendor personnel who had
                 submitted a signed nondisclosure agreement.

                 TSA officials reported to us that over time, TSA’s Office of Privacy and
                 the Office of Chief Counsel’s Information Law branch informed SPPO
                 and the Office of Acquisitions (ACQ) that the program’s prior process for
                 vetting vendors, which included completion of a nondisclosure agreement,
                 violated their privacy rights. TSA does not have a Privacy Impact
                 Assessment (PIA) in place for the collection of personally identifiable
                 information provided through the nondisclosure agreements. A PIA is a
                 comprehensive process for determining the privacy, confidentiality, and
                 security risks associated with the collection, use, and disclosure of
                 personal information. It also defines the measures used to mitigate and,
                 wherever possible, eliminate the identified risks. A PIA also
                 communicates to the public how their privacy is protected and their
                 information kept confidential and secure from unauthorized access.




2
 49 C.F.R. Part 1520. 

3
  GAO-08-232R Transportation Security Administration Processes for Designating and Releasing Sensitive 

Security Information, November 30, 2007.




                             TSA’s Breach of Sensitive Security Information

                                                Page 3
                Because of the concerns raised by the Offices of Privacy and Chief
                Counsel, TSA released the solicitation to implement privatized screening
                at the Key West Airport with limited information, did not have vendors
                sign a nondisclosure agreement, and did not release the SSI Screening
                Management SOPs. After the contract award, one vendor that had
                proposed to undertake and perform these duties at Key West Airport
                conveyed to TSA that not having access to SSI Screening Management
                SOPs placed them at a disadvantage, as other vendors had those
                documents through previously signed nondisclosure agreements.

                In reviewing the Key West solicitation, the Offices of Chief Counsel and
                ACQ determined that TSA provided too little information and risked
                receiving an award protest. The expressed view was that incumbent
                contractors who already possessed the Screening Management SOPs
                would have an unfair advantage. To accommodate the information needs
                of potential vendors, and to discontinue the use of nondisclosure
                agreements, TSA officials we spoke with said that the Office of Sensitive
                Security Information (OSSI) suggested that SPPO include a redacted
                version of the Screening Management SOPs when releasing information in
                a request for proposal. We were told there was not a redacted version of
                the Screening Management SOPs at that time. In June 2008, SPPO
                requested that OSSI perform a review of the TSA Screening Management
                SOPs, Aviation Security Screening Management Standard Operating
                Procedures.4

                Submission and Review of the Screening Management SOPs

                SSI Review Request

                OSSI is the SSI program manager for TSA. On June 23, 2008, SPPO
                submitted TSA’s Screening Management SOPs to OSSI for review. In the
                SSI review request form, an SPPO official asked for “a review that
                identified specific SSI within the submitted record(s) so that the text can
                be either redacted (covered by black boxes) or visually redacted
                (highlighted).”

                OSSI received and entered the SSI review request into its system on
                June 24, 2008. OSSI uses an automated system to process and track SSI
                review requests, called the SSI Tracking Audit and Review System
                (STARS). As noted on the request form, SPPO requested an expedited
                review of the Screening Management SOPs. Rather than the five to ten


4
 Aviation Security, Screening Management Standard Operating Procedures; Revision 3; May 28, 2008,
Implementation date: June 30, 2008. (SSI)



                             TSA’s Breach of Sensitive Security Information

                                                Page 4
business days OSSI requires to complete a review, SPPO officials
requested that OSSI complete the review by June 30, 2008, or four
business days after OSSI entered the initial request into STARS.

Requests for Extension

After receipt of the initial review request, email correspondence between
OSSI and SPPO indicate that OSSI twice communicated its inability to
meet the expedited timeline of June 30, 2008. In an email message to
SPPO dated June 26, 2008, OSSI program staff acknowledged that the
office required an adjusted due date of July 3, 2008, because of the
absence of key personnel.

On July 2, 2008, OSSI program staff again sent an email message to SPPO
that indicated OSSI would be unable to meet the July 3, 2008, deadline.
OSSI staff requested a readjusted timeline to perform their analysis. As
explanation for this readjusted timeline, an OSSI senior official cited the
need for a roundtable discussion, as well as additional support from OSSI
subject matter experts on proposed redactions.

Three-Stage Review Process

According to The SSI Review Analyst SOP Checklist and Style Guide,
located in Appendix E of this report, OSSI conducts most of its SSI
reviews in a 3-stage review process. The first stage consists of a
comprehensive SSI review of the material, including marking proposed
redactions and providing accompanying citations to justify those
redactions. These markings and citations are applied to the document by
the first OSSI reviewer. Then the first reviewer’s comments are
subsequently reviewed by OSSI staff in the second and third stage
reviews.

The second stage review requires a comprehensive review of the material
as though it was the first review, except the OSSI analyst also critically
examines the first reviewer’s markings. The second reviewer can either
agree with the first reviewer’s proposed redactions, or mark corresponding
sections in which redactions need adjustment. These markings and
citations are also applied to the document by the second reviewer.

In the third and final stage, a senior OSSI analyst must perform the final
review. As the final decision-making authority for the determination and
review of SSI material in the document, the third OSSI reviewer resolves
discrepancies in markings between the first and second reviewers. In
addition, the third reviewer may choose to schedule a roundtable



           TSA’s Breach of Sensitive Security Information

                              Page 5
          discussion with relevant reviewers and subject matter experts to discuss
          proposed SSI redactions.


Results of Review
          When TSA learned that SSI was publically available, it took immediate
          actions and began intermediate and long-term measures to mitigate
          vulnerabilities. In reviewing the events and circumstances surrounding the
          SSI release, we determined that OSSI’s failure to follow its procedures
          resulted in an improper redaction of SSI. In addition, TSA actions to
          support the solicitation to privatize seven airports in the State of Montana
          faced a number of challenges, including several amendments to the
          solicitation, and concerns that the Screening Management SOPs
          attachment was not marked properly. Further, TSA and the department’s
          internal controls for reviewing, redacting, and coordinating the protection
          of SSI are deficient.

     Roundtable Discussion Used in Lieu of Three-Stage Review
     Process
          OSSI officials described the roundtable discussion method as an exception
          to the 3-stage review process for reviewing documents for SSI content, but
          they contend that it is just as rigorous. OSSI uses it in limited
          circumstances, such as for complex documents or expedited review of
          documents not previously reviewed for redaction.

          Due to the expedited nature of the review request, and because the
          Screening Management SOPs had not been reviewed for redaction of SSI
          before, at 1:00 p.m. on July 7, 2008, OSSI convened a roundtable
          discussion. In addition, the roundtable discussion allowed OSSI officials
          with subject matter expertise to collaborate on proposed redactions.
          During our review, we identified possible data integrity issues with the
          data contained in the STARS database. For example, according to
          STARS, there were four OSSI participants present at the roundtable
          discussion; however, evidence indicates that there may have only been
          three OSSI staff participants.

          For the roundtable discussion, OSSI officials reviewed printed copies of
          the Screening Management SOPs and other relevant materials




          During the roundtable discussion, the participants agreed upon the

                     TSA’s Breach of Sensitive Security Information

                                        Page 6
     redactions required in the Screening Management SOPs. At the
     conclusion of the meeting on July 7, 2008, the document was designated
     as having undergone final review. One participant in the roundtable
     discussion was tasked with completing the technical process of creating
     the redacted documents and delivering the documents to SPPO.


OSSI Policies and Procedures do not Advise Employees on
Handling and Releasing Redacted SSI Documents
     While TSA has policies and procedures for managing SSI, these policies
     and procedures do not include requirements for handling and releasing
     printed or electronically redacted documents. Each TSA Assistant
     Administrator and Federal Security Director must designate at least one
     SSI Coordinator for their functional area of responsibility. An SSI
     Coordinator assists OSSI with SSI matters, including assisting personnel
     with the appropriate use, application, and marking of SSI. TSA’s policies
     and procedures should include detailed guidance as well as instruction on
     proper controls for the handling and release of redacted SSI material.

     TSA officials reported to us that the TSA Online Learning Center features
     a Sensitive Security Information (SSI) Awareness course available to all
     TSA employees and is required as part of TSA’s annual training
     requirements for employees who handle SSI documents. After our review
     of this training course, we determined that this training does not contain
     instruction on handling redacted SSI material, the process of consulting
     with SSI coordinators, or discussion of any other quality control steps
     prior to the release of redacted information outside of DHS.

     The Password Protection for Electronic Transmission and Storage of SSI
     Records policy, dated September 29, 2006, requires authorization by the
     TSA Information Technology Security Office to post SSI material on
     secure portals, websites, or applications without passwords. The policy
     titled Posting Material on the TSA Internet pertains to information that is
     intended to be posted on TSA’s website. Requirements include
     certification by an employee that the material does not contain SSI. Either
     OSSI or the employee’s SSI Coordinator must review content that causes
     the employee uncertainty regarding its sensitivity. In addition, the
     employee must complete an Internet Posting Request form certifying that
     the material, whether a printed version of the electronic document or the
     html code posted on the internet, does not contain SSI. TSA should revise
     its SSI policies to advise employees on the creation of electronically
     redacted documents, and provide instructions on the proper posting of
     redacted information on unsecured internet sites.



               TSA’s Breach of Sensitive Security Information

                                  Page 7
     An OSSI senior official told us that OSSI is not culpable for the release of
     SSI information by TSA employees. According to the OSSI senior
     official, current policies and procedures do not compel TSA employees to
     vet or request the assistance of OSSI in performing redactions and release
     of SSI. Should TSA agree with these statements, stronger internal
     controls are necessary.


Failure to Follow OSSI Procedures Resulted in an Improper
Document Redaction
     As described in The SSI Review Analyst SOP Checklist and Style Guide,
     SSI reviews can result in two types of products that are returned to
     requesting officials. On the SSI review request form, SPPO specifically
     requested the creation of both a visually redacted (VR) version as well as a
     redacted (R) version of the Screening Management SOPs. A VR version
     is a document in which SSI material has been identified and highlighted,
     and sensitive text is still visible to the requesting program official. An R
     version of a document contains the same redactions; however, in the R
     version the highlights are filled in so that sensitive material has been
     obscured from view. The R version of a final document is created directly
     from the VR version, and redactions in the two documents should be
     identical.

     Redaction and Delivery of Document

     Following the roundtable discussion on July 7, 2008, the agreed upon
     redactions were applied to the documents. According to STARS, OSSI
     program staff finalized the documents at 2:47 p.m. At 3:03 p.m., OSSI
     delivered the documents to SPPO via an email. The email contained both
     the VR and R versions of the document as well as a transmittal
     memorandum describing the authority by which such information had
     been withheld. Refer to Appendices F and G for a copy of the email and
     memorandum. Even though OSSI redacts the SSI header and footer in the
     R version, these markings were still visible when transmitted to SPPO.
     The identified SSI content within the document, however, was covered by
     black redaction boxes.




                TSA’s Breach of Sensitive Security Information

                                   Page 8
                  In our discussions with senior OSSI staff, they believed that the OSSI
                  guide’s step-by-step directions would result in a secure or “locked down”
                  image file, and that the text under the black redaction boxes is not visible
                  or retrievable. By their account, the process of creating an R version of an
                  SSI document allows TSA to share information publically and as broadly
                  as possible without divulging SSI. OSSI used                             to
                  perform redaction of the Screening Management SOPs.

                  In                          the key step to ensure that document contents
                  cannot be either manipulated or retrievable is to check
                                Officials from the Offices of OSSI and TSA’s Office of
                  Information Technology (OIT) reported to us that OSSI did not consult
                  with OIT prior to the December 6, 2009, breach to ensure that the
                  redaction process as written in The SSI Review Analyst SOP Checklist and
                  Style Guide resulted in a locked down image of the document where text
                  under the black redaction boxes is not visible or retrievable. The OSSI
                  guide’s step-by-step directions to create VR and R versions are depicted in
                  Figure 1.




5

software program, which views, creates, manipulates and manages files in 

               a file format that allows for cross-platform electronic information exchange.





                               TSA’s Breach of Sensitive Security Information

                                                   Page 9
Figure 1: Visually Redacted and Redacted Document Creation




Source: OIG Analysis of The SSI Review Analyst SOP Checklist and Style Guide

TSA officials said that for the redacted information in the Screening
Management SOPs to be visible, OSSI staff did not check
               for the R version. Further, OSSI staff should have realized
the error upon performing the text search step, which serves as OSSI’s
only quality control feature to ensure redactions are applied correctly. A


           TSA’s Breach of Sensitive Security Information

                              Page 10
                 secondary check by another OSSI staff could have identified the error, but
                 this procedure was not in place and did not occur prior to distribution of
                 the VR and R documents from OSSI to SPPO.

                 As we depict in Figure 1, our review of the Screening Management SOPs
                 determined the steps used to create a redacted document could lead to
                 confusion. Instructions in The SSI Review Analyst SOP Checklist and
                 Style Guide on redacted document naming are ambiguous and could lead
                 to improper redaction and inadvertent SSI disclosure. Once OSSI
                 personnel are finished creating the VR version, the instructions direct the
                 creation of two R version documents that look identical, yet only one is
                 properly redacted                    With two documents having the same
                 nomenclature, OSSI could potentially send the R version that is not
                 properly locked down                     and the recipient would be
                 unaware that redacted information is retrievable. Given OSSI’s
                 procedures, there is a high chance of failure to select the properly redacted
                 version. OSSI could have eliminated this potential failure by restructuring
                 the nomenclature into three distinct file names.

                 Sending the VR and R to the Requestor

                 The transmittal memorandum accompanying the two documents indicated
                 both documents were password protected. The memorandum further
                 instructed the recipient that for external distribution of these files, the
                 recipient is to either use a printed copy or, in the case of the password
                 protected file re-save the file with an idiosyncratic password that meets
                 TSA’s password requirements.6 The transmittal memorandum also
                 advised SPPO of OSSI’s availability to answer any questions related to the
                 redacted documents. When we opened the same documents sent to SPPO,
                 the VR version included password protection.

                 On August 15, 2008, SPPO staff returned the redacted Screening
                 Management SOPs in an email message to an OSSI staff member stating
                 that SPPO wants to release the SOPs. In this message the SPPO staff
                 member also said that he or she believed that the “header footer” needed
                 to be marked out. We have made a request for additional documentation
                 to further analyze the communications between these two individuals.
                 This was OSSI’s first opportunity to realize the document was not
                 properly redacted.



6
  According to the TSA Sensitive Security Information Policy and Procedure Guide, to electronically
transmit SSI material via email, all passwords must follow a prescribed standard format as determined in
the policy.



                              TSA’s Breach of Sensitive Security Information

                                                 Page 11
     Although not the focus of our review, when OSSI produces a locked down
                 document using its internal policy, these documents do not
     appear to be in compliance with DHS’ Management Directive, Section
     508 Program Management Office & Electronic and Information
     Technology Accessibility. To be 508 compliant, non-redacted text must be
     searchable, and OSSI’s creation of a locked down          does not allow
     assistive technology to access non-redacted text. Because this issue is
     outside the scope of our review, once immediate concerns of the SSI
     breach have been resolved, TSA should conduct an analysis of OSSI’s 508
     compliance.

     OSSI’s Three-Stage Review Processes Warrant Further Review

     OSSI’s procedures instruct reviewers to use a color-coded system to
     distinguish the different levels of review for a document. Each level of
     review is assigned a distinctive color to use when marking SSI content
     identified in a document. Therefore, the third-stage reviewer could see
     two different colors marking which level of review identified particular
     SSI content.

     According to some OSSI program staff, the application of color-coded
     boxes, used by analysts to distinguish the various review stages and
     redactions, may have been applied inconsistently in other OSSI redaction
     reviews. This potential inconsistency and confusion over procedures is
     outside of our current scope, but should be reviewed in the future to ensure
     the integrity, designation, and proper protection of SSI.


TSA Actions to Support the Montana Airport Solicitation Faced a
Number of Challenges
     Posting of Solicitation to Federal Business Opportunities Website

     There was a significant time gap between the August 15, 2008, email and
     the initial posting of the request for proposal on February 7, 2009.
     Although we have been unable to determine the exact cause of the gap,
     several TSA officials told us there were organizational and staff changes
     in offices involved in the procurement during this timeframe, as well as
     delays in funding and program decisions.

     On February 7, 2009, TSA’s ACQ posted solicitation Number HSTS05­
     09-R-SPP061, on FedBizOpps.gov. FedBizOpps.gov lists notices of
     proposed government procurement actions, contract awards, sales of
     government property when the value is greater than $25,000, and other
     procurement information. Solicitation HSTS05-09-R-SPP061 disclosed


                TSA’s Breach of Sensitive Security Information

                                   Page 12
that TSA intended to solicit industry to provide transportation security
screening services at seven Montana airports, to include comprehensive
screening of passengers and baggage. The initial posting did not include
the Screening Management SOPs.

On February 13, 2009, ACQ staff posted Amendment 1 to
FedBizOpps.gov. Amendment 1 provided industry with the time of the
Pre-Proposal Conference at TSA headquarters and changed the date for
potential bidders to submit questions. Amendment 1 did not include the
posting of the Screening Management SOPs.

Concerns Surfaced that the Solicitation Did Not Include the Screening
Management SOPs

As the posted solicitation on February 7, 2009, and Amendment 1 on
February 13, 2009, did not include the Screening Management SOPs,
there were discussions within TSA to get the SOPs posted. ACQ staff said
they would have included the Screening Management SOPs as an
attachment to the February 7, 2009 solicitation, but they had failed to do
so because SPPO had not submitted it with other procurement documents.
On February 26, 2009, ACQ and SPPO staff discussed whether to include
the Screening Management SOPs with a new amendment to the
solicitation.

These conversations resulted in a decision to provide a redacted Screening
Management SOPs to ensure potential bidders had access to the necessary
information to create meaningful proposals in response to the solicitation.
SPPO coordinated with the OSO Procedures Branch on the afternoon of
February 26, 2009, to determine whether the SOPs had undergone
significant updates since the SSI review in July 2008. Shortly after
SPPO’s request, the Procedures Branch provided SPPO with a summary
of updates between the current Screening Management SOPs and the
redacted version provided by SPPO. As these changes were determined to
be insignificant, the SPPO made the decision to move forward with the
redacted version, and at 4:52 p.m. on February 26, 2009, SPPO forwarded
what was thought to be a redacted Screening Management SOPs to ACQ.
Our review of the document determined that the SSI header and footer
markings on this document were not redacted, although the identified SSI
content within the document was covered by black boxes.

ACQ staff posted Amendment 2 to FedBizOpps.gov on
March 3, 2009. Amendment 2 replaced the existing Solicitation Table of
Contents, changed the date for questions or requests for clarification
submittals, changed the due date for proposal submissions, and added the
Screening Management SOPs as attachment J-15. This is the first posting


          TSA’s Breach of Sensitive Security Information

                             Page 13
of the Screening Management SOPs to FedBizOpps.gov. Interviews with
staff from SPPO and ACQ revealed that neither SPPO nor ACQ
performed any check of the electronic document to ensure the redactions
were applied correctly. Both SPPO and ACQ staff believed it was OSSI’s
responsibility to provide a fully protected document.

Additional Concerns Raised That the Screening Management SOPs
Attached to the Solicitation Was Improperly Marked

On March 10, 2009, SPPO staff received notification that the redacted
Screening Management SOPs loaded to FedBizOpps.gov still had the SSI
header and footer markings, even though the document was reportedly
fully redacted. The SPPO personnel notified ACQ staff about the
improperly marked SOP. ACQ personnel acknowledged that the markings
were visible and should be blacked out. ACQ staff said that the visible
marking would cause some concern even though there was no visible SSI
in the document.

Dialogue continued between ACQ and SPPO personnel concerning adding
a new amendment to the solicitation with a correctly marked version of the
SOPs. ACQ personnel asked SPPO staff for a point of contact from the
office that controls the SOPs to solicit guidance. The SPPO advised ACQ
personnel to seek guidance from OSSI. OSSI senior staff instructed ACQ
personnel to publish a new version of the document with the visible SSI
header and footer markings blacked out, but stated that no harm was done.
ACQ staff explained again that there did not appear to be any sensitive
information in the document, and OSSI acknowledged their statement and
thanked ACQ staff for the briefing.

Further evidence shows that on the afternoon of March 13, 2009, ACQ
transmitted an electronic version of the July 7, 2008, redacted SOP for
correction to OSSI. Later that afternoon, OSSI senior contract staff
transmitted a modified version of the July 7, 2008, redacted SOP to ACQ.
Our preliminary analysis of this modified SOP demonstrates that the SSI
header and footer markings were redacted properly. However, the black
box redactions were not properly locked down. Meaning the text under
the black boxes would remain visible should the boxes be moved. Thus,
OSSI did not perform their own quality control procedures to ensure the
Screening Management SOPs were locked down. This was OSSI’s
second opportunity to realize the document was not properly redacted.

ACQ staff posted the modified July 7, 2008, redacted SOP as part of
Amendment 3 to FedBizOpps.gov solicitation on March 16, 2009.
Amendment 3 included changing the ACQ solicitation point of contact,
and providing government responses to bidder’s questions in PDF format;


          TSA’s Breach of Sensitive Security Information

                             Page 14
     government changes to request for proposal in response to bidder
     questions in PDF format; a slide presentation from Pre-Proposal
     Conference in PDF format; and a what was thought to be a fully redacted
     Screening Management SOPs document from Amendment 2 in PDF
     format.

     SPPO Procurement Package Remains on Federal Business Opportunities
     After Contract Award

     On August 24, 2009, TSA awarded the contract for screening management
     services at the seven Montana airports. According to FedBizOpps.gov
     personnel, after a procurement is complete, the information posted to
     support the solicitation is removed from active listings, but remains
     retrievable on the FebBizOpps.gov. The information remains on the
     website for historical purposes and allows individuals to conduct market
     research regarding past government purchases. ACQ staff stated that
     Amendments 2 and 3 to the solicitation included the Screening
     Management SOPs, but also administrative procurement related
     documents. ACQ staff told us they believed the contents of the documents
     were properly redacted, therefore there was no need to remove them from
     FedBizOpps.gov. As a result, the Screening Management SOPs were
     archived with the other procurement related documents.


SSI Security Breach Discovered
     TSA officials received email messages on December 5, 2009, advising of
     a potential SSI breach. These notifications were made by a TSA
     employee to OSSI, several TSA SSI Coordinators, the TSA Contact
     Center, as well as an external entity, the United States Computer
     Emergency Readiness Team. At this time, we are unaware of what actions
     TSA took in response to these notifications.

     On December 6, 2009, at 4:28 p.m., the TSA Blog Team received an email
     indicating that redacted SSI in TSA’s Screening Management SOPs was
     on the internet and visible to the public. Figure 2 reflects TSA’s senior
     leadership actions in response to the Blog Team notification.




               TSA’s Breach of Sensitive Security Information

                                  Page 15
Figure 2: Chronology of Security Breach Discovery




Source: OIG Analysis of TSA Information

TSA Actions in Response to the SSI Security Breach

In response to the notification of the improperly redacted Screening
Management SOPs on the internet, TSA’s Acting Administrator
implemented a number of immediate actions and formulated intermediate
and long-term plans to mitigate vulnerabilities. Some of these actions
include:

        �	 Directing that all screening SOPs are to be marked and handled
           as SSI in entirety until further review.
        �	 Conducting an inventory of all SSI documents and directing
           development of specific handling guidance.
        �	 Directing ACQ review all other FedBizOpps.gov postings for
           SSI and take down any SSI documents.
        �	 Directing OSO complete a full review of the SOP that was
           leaked and advise of any additional enhancements to security
           operations that should be made.
        �	 Conducting aggressive outreach to industry stakeholders and
           partners.

Refer to Appendices H and I for more detailed information on these
December 8, 2009, actions. Also to convey the level of importance of this
incident the Acting Administrator conveyed, “It was a failure that we take

           TSA’s Breach of Sensitive Security Information

                              Page 16
         very seriously, but in the end, we will be a stronger organization and our
         security system will be even further enhanced because we have been
         through this crisis.”


Conclusion
         Once TSA received notification that SSI in its Screening Management
         SOP was visible to the public, the Acting Administrator took a number of
         immediate, intermediate, and long-term actions to mitigate vulnerabilities.
         In reviewing the events and circumstances surrounding the SSI release, we
         determined that OSSI’s failure to follow its procedures resulted in an
         improper redaction of SSI. In addition, TSA actions to support the
         solicitation to privatize seven airports in the State of Montana faced a
         number of challenges, including several amendments to the solicitation
         and concerns that the Screening Management SOPs attachment was not
         marked properly. Although the solicitation closed on August 24, 2009, the
         original request for proposal with all attached documents remained visible
         on the internet until the TSA Blog Team received notification of the
         breach on December 6, 2009.

         We are concerned that an improperly redacted version of the SSI
         Screening Management SOPs passed through a number of TSA offices
         from June 7, 2008, to posting the document on FedBizOps.gov on
         March 3, 2009, and again on March 16, 2009, without any internal
         procedures to determine whether the document was redacted properly. As
         a result, TSA and department internal controls for reviewing, redacting,
         and coordinating the protection of SSI are deficient. By implementing our
         five recommendations, TSA and the department will be positioned better
         to protect the handling, review, redaction, and dissemination of SSI.


    Recommendations, Management Comments, and OIG Analysis
         Recommendation #1: We recommend that the DHS Chief Privacy
         Officer convene a working group of information technology experts from
         across the department to determine a department-wide standard for
         redaction software, and to develop methods for the proper public release
         of any sensitive information. Ensure that any selected software meets the
         department-wide standards as determined by the working group.

         Chief Privacy Officer Response: The Chief Privacy Officer concurs
         with Recommendation 1. In December 2009, DHS’ Deputy Secretary
         established a senior level team, the DHS Information Security Working
         Group, to examine the department’s information security program

                    TSA’s Breach of Sensitive Security Information

                                       Page 17
protocols related to sensitive but unclassified information. The Chief
Privacy Officer and the working group, which includes information
technology, security, policy, privacy, and legal experts, have met several
times and have instituted the planning necessary to take these steps.

TSA Response: TSA management responded that it will support all
actions initiated in response to this recommendation.

OIG Analysis: The department’s proposed actions are responsive to the
intent of the recommendation, which is resolved and open. This
recommendation will remain open pending our receipt of the working
group’s department-wide standard for redaction software, the methods
developed for the proper public release of any sensitive information, and a
determination that any software used for redaction meets the department-
wide standards determined by the working group.

Recommendation #2: We recommend that the DHS Chief Privacy
Officer, in coordination with the Acting Administrator for TSA revise
policies, procedures, and training materials to ensure that upon
transmission or receipt of any redacted document, department senders and
recipients are required to determine whether redacted information in the
document is visible or retrievable. When redacted information is visible
or retrievable, the sender and recipient must acknowledge to one another
the document is not redacted and cannot be disseminated publicly.

Chief Privacy Officer Response: The Chief Privacy Officer concurs
with Recommendation 2, and will coordinate with TSA’s Acting
Administrator. The Chief Privacy Officer notes that the Acting
Administrator responded separately to us, and TSA will revise its
procedures and training materials to include the proper handling of
redacted materials to ensure they no longer contain sensitive information
prior to public release. The Chief Privacy Officer responded that the DHS
Information Security Working Group is coordinating the review and
revision of policies, procedures, and training materials department-wide.

TSA Response: TSA management responded that it concurs with
Recommendation 2. TSA will revise its procedures and training materials
to include the proper handling of redacted materials to ensure they no
longer contain sensitive information prior to public release.

OIG Analysis: The department’s proposed actions are responsive to the
intent of the recommendation, which is resolved and open. This
recommendation will remain open pending our receipt of TSA’s revised
procedures and training materials to include the proper handling of
redacted materials.


           TSA’s Breach of Sensitive Security Information

                              Page 18
Recommendation #3: We recommend that the Acting Administrator for
TSA ensure that upon the redaction of any Sensitive Security Information
document, there is an independent quality control procedure to validate
that redacted information is not visible or retrievable. The quality control
reviewer is someone other than the person who performs and applies the
redactions. The quality control reviewer is to search the document for
known redacted text, and is to determine that no visible or retrievable
information exists before subsequent transmission of the document can
occur.

TSA Response: TSA management responded that it concurs with
Recommendation 3. TSA’s Sensitive Security Information Program
Office has been realigned from the Office of the Special Counselor to the
Office of Intelligence as the Sensitive Security Information Branch.
Immediately following this incident, the Sensitive Security Information
Branch has made one employee responsible for Quality Assurance
reviews. Based upon the results of this inspection, TSA will make
additional changes to the Quality Assurance position.

OIG Analysis: TSA’s proposed actions are responsive to the intent of the
recommendation, which is resolved and open. This recommendation will
remain open pending our receipt of TSA’s changes to the Quality
Assurance position, which demonstrates there is an independent quality
control procedure to validate that redacted information is not visible or
retrievable.

Recommendation #4: We recommend that the Acting Administrator for
TSA provide Sensitive Security Information recipients with handling and
transmission instructions, which include details for external releases and
password protection measures. Further, these instructions should be
retained with the Sensitive Security Information document.

TSA Response: TSA management responded that it concurs with
Recommendation 4. In addition to required annual training for TSA
employees, TSA makes guidance available on the proper handling of SSI.
This guidance will be updated to include handling, transmission, and
external release instructions.

OIG Analysis: TSA’s proposed actions are responsive to the intent of the
recommendation, which is resolved and open. The recommendation will
remain open pending our receipt TSA’s revised guidance, which includes
updated handling, transmission, and external release instructions.




           TSA’s Breach of Sensitive Security Information

                              Page 19
Recommendation #5: We recommend that the Acting Administrator for
TSA conduct an audit of the Sensitive Security Information Tracking
Audit and Review System to ensure that intake, review, and dissemination
of requests are accurate.

TSA Response: TSA management responded that it concurs with
Recommendation 5. The TSA’s Acting Administrator has asked TSA's
Office of Inspection to conduct a program review on this matter.

OIG Analysis: TSA’s proposed actions are responsive to the intent of the
recommendation, which is resolved and open. This recommendation will
remain open pending our receipt of TSA’s Office of Inspection program
review of the Sensitive Security Information Tracking Audit and Review
System.




          TSA’s Breach of Sensitive Security Information

                             Page 20
Appendix A
Scope, Purpose, and Methodology

            In response to a request from DHS’ Secretary, we assessed the events and
            actions surrounding the review, public posting, and discovery of an
            unredacted SSI Screening Management SOPs document. Specifically, our
            objectives were to determine how and why the release occurred, and
            whether management controls are in place and operational to ensure that a
            similar event would not recur.

            We interviewed representatives of multiple TSA offices, to include OSSI,
            the SPPO, ACQ, OIT, OSO, Office of Special Counselor, and the Office
            of Inspections. In addition, we interviewed employees and officials of
            relevant offices, components, and entities external to TSA and DHS. We
            did not perform an analysis of OSSI’s assessment of what it considers SSI
            in the Screening Management SOP.

            We also reviewed applicable legislation, regulations, directives, policies,
            operating procedures, databases, and official guidance, documents and
            manuals. In addition, we studied work previously performed by our office
            in this and associated areas, as well as the work conducted by Government
            Accountability Office.

            Our fieldwork occurred in December 2009. We initiated this review under
            the authority of the Inspector General Act of 1978, as amended, and
            according to the “Quality Standards for Inspections,” issued by the
            President’s Council on Integrity and Efficiency.




                      TSA’s Breach of Sensitive Security Information

                                         Page 21
Appendix B
TSA Comments to the Draft Report




                     TSA’s Breach of Sensitive Security Information

                                        Page 22
Appendix B
TSA Comments to the Draft Report




                     TSA’s Breach of Sensitive Security Information 


                                        Page 23 

Appendix B
TSA Comments to the Draft Report




                     TSA’s Breach of Sensitive Security Information 


                                        Page 24 

Appendix B
TSA Comments to the Draft Report




                     TSA’s Breach of Sensitive Security Information 


                                        Page 25 

Appendix C
Chief Privacy Officer Comments to the Draft Report




                       TSA’s Breach of Sensitive Security Information 


                                          Page 26 

Appendix C
Chief Privacy Officer Comments to the Draft Report




                       TSA’s Breach of Sensitive Security Information 


                                          Page 27 

Appendix D
Evolution and History of the Redacted Screening Management SOPs




                                         TSA’s Breach of Sensitive Security Information 


                                                            Page 28 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information

                                         Page 29
Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 30 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 31 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 32 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 33 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 34 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 35 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 36 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 37 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 38 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 39 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 40 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 41 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 42 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 43 

Appendix E
The SSI Review Analyst SOP Checklist and Style Guide




                      TSA’s Breach of Sensitive Security Information 


                                         Page 44 

Appendix F
Office of SSI Transmission Email of Redacted Screening Management SOP to the
Screening Partnership Program Office




                      TSA’s Breach of Sensitive Security Information

                                         Page 45
Appendix G
Office of SSI Transmission Memorandum of Redacted Screening Management SOP
to the Screening Partnership Program Office




                     TSA’s Breach of Sensitive Security Information

                                        Page 46
Appendix H
Security Screening Standard Operating Procedures – Sensitive Security
Information




                       TSA’s Breach of Sensitive Security Information

                                          Page 47
Appendix H
Security Screening Standard Operating Procedures – Sensitive Security
Information




                       TSA’s Breach of Sensitive Security Information 


                                          Page 48 

Appendix I
Inventory of SSI Documents and Proper Handling Guidance




                      TSA’s Breach of Sensitive Security Information

                                         Page 49
Appendix J
Major Contributors to this Report

                    Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                    Security, Office of Inspector General, Office of Inspections

                    Angela Garvin, Senior Inspector Department of Homeland
                    Security, Office of Inspector General, Office of Inspections

                    McKay Smith, Inspector, Department of Homeland Security,
                    Office of Inspector General, Office of Inspections

                    Anne Ford, Inspector, Department of Homeland Security, Office of
                    Inspector General, Office of Inspections

                    Jordan Brafman, Inspector, Department of Homeland Security,
                    Office of Inspector General, Office of Inspections

                    Office of Inspector General, Office of Investigations, Washington
                    Field Office

                    Office of Inspector General, Office of Information Technology




                       TSA’s Breach of Sensitive Security Information

                                          Page 50
Appendix K
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator for the Transportation Security Administration
                      Chief Privacy Officer
                      Under Secretary for Management
                      TSA Audit Liaison
                      Privacy Office Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                         TSA’s Breach of Sensitive Security Information 


                                            Page 51 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
